<html>
<title> - REGIONAL IMPACT OF U.S. POLICY TOWARDS IRAQ AND SYRIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





         REGIONAL IMPACT OF U.S. POLICY TOWARDS IRAQ AND SYRIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

                           Serial No. 114-33

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-389 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Seth G. Jones, Ph.D., director, International Security and 
  Defense Policy Center, RAND Corporation........................     6
General Jack Keane, USA, Retired, chairman of the board, 
  Institute for the Study of War.................................    24
Tamara Cofman Wittes, Ph.D., director, Center for Middle East 
  Policy at Brookings............................................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Seth G. Jones, Ph.D.: Prepared statement.........................     9
General Jack Keane, USA, Retired: Prepared statement.............    27
Tamara Cofman Wittes, Ph.D.: Prepared statement..................    40

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    68

 
         REGIONAL IMPACT OF U.S. POLICY TOWARDS IRAQ AND SYRIA

                              ----------                              


                        THURSDAY, APRIL 30, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    I will first recognize Ranking Member Deutch for 5 minutes 
each for our opening statements. I will then recognize other 
members seeking recognition for 1 minute and thank you for my 
Cuban coffee.
    And there are so many subcommittees and full committees 
taking place right now because tomorrow, Friday, we will be on 
a district work period, so everybody is cramming their work in.
    So Ted Deutch is in an actual voting marathon in Judiciary 
but will come over here in a minute, and then Lois Frankel has 
Transportation--a committee that she has to go to.
    But we will then hear from our witnesses and without 
objection, the witnesses' prepared statements will be made a 
part of the record. Members may have 5 days to insert 
statements and questions for the record subject to the length 
limitation in the rules.
    And I am going to take this a little bit out of order today 
because I know Congressman Deutch has to get back to votes in 
Judiciary.
    I would like to recognize him first so that you can get on 
with your business, Congressman Deutch.
    Mr. Deutch. Thank you very much, Madam Chairman.
    I apologize to the panel. We have votes and close votes at 
that. So I am going to be running back and forth.
    Thanks very much for providing us the opportunity to 
examine how current U.S. strategy in Iraq and Syria is 
impacting the rest of this vulnerable region and thanks to our 
distinguished witnesses for being here today.
    This is one of a dozen or so hearings that we have had on 
Syria, Iraq or ISIS in the past couple of years and each time 
we convene to address the conflict as a whole or specific 
aspects I am struck by what I am concerned is a general lack of 
strategy when it comes to ending the Syrian civil war.
    I applaud the President's willingness to take action 
against ISIS and we are seeing some successes from that air 
campaign in Iraq, and I support our efforts to train and equip 
the moderate Syrian opposition.
    But I do believe that we waited too long to get that 
program off the ground in a meaningful way. The opposition has 
fractured over and over again and the Syrian people are being 
forced to choose to align with those who can simply provide 
them the greatest protection.
    With most of our efforts focused on ISIS' brutality, we 
seem to have left out a very critical piece of the puzzle. This 
conflict will not end unless Assad is no longer in power.
    The suggestion that Assad is part of any solution or that 
he is a protector against ISIS is, quite frankly, ridiculous. 
This is a regime that has been responsible for the deaths of 
thousands, tens of thousands, hundreds of thousands of Syrians.
    This is a regime that has abandoned its people, trapping 
them in besieged areas without access to food and basic 
humanitarian needs. This is a regime that has resorted to the 
most barbaric torture, dropped barrel bombs on its people and 
used chemical weapons against its own citizens.
    And frankly, when we talk to our allies in the region, we 
are often met with confusion and frustration over, some 
believe, a lack of strategy for Syria. The chaos that has spun 
out from the Syrian conflict is having a devastating impact on 
the region.
    The humanitarian crisis alone is threatening the stability 
of critical states like Jordan and Lebanon. This conflict will 
change the makeup of the region for decades to come.
    Even if Syria was solved tomorrow it would take years 
before refugees and displaced persons could return to their 
homes and we have to make sure that the people of Syria know 
that the United States stands with them and that they do not 
believe that the coalition is acting on behalf of Assad or as 
Assad's air force.
    And we can do that by continuing to support the opposition 
including the consideration of buffer zones. The United States 
must think holistically about what the impact of Assad 
remaining in power could have on the region. A direct 
consequence would be the emboldening of Iran.
    Assad in power preserves Iran's lifeline to Hezbollah, and 
a report just this week estimated that Iran is spending $1 
billion to $2 billion a month supporting Assad and Hezbollah in 
Syria.
    Our efforts to combat ISIS in Iraq have resulted in 
moderate gains. The Abadi government seems to be willing to 
correct the years of weak and exclusive governance left--that 
left western Iraq susceptible to ISIS. Do our allies fear the 
U.S. will cooperate with Iran against ISIS in Iraq?
    Expanded Iranian influence in Iraq could have a devastating 
effect on our efforts to support the Abadi government and 
encourage inclusive governing.
    If Shi'ite militias are seen as receiving the backing of 
the Government of the United States, that could alienate Sunni 
tribes. And as we deal directly with Iraq and Syria we need to 
support our regional partners to defend their own countries 
against ISIS growth.
    There are extremist groups in nearly every Middle Eastern 
nation who have declared allegiance to ISIS. That is why I was 
pleased to join the chairman in co-sponsoring legislation that 
would ensure the Kingdom of Jordan receive the assistance that 
it needs to maintain security and stability. We must also push 
to strengthen efforts to stem the flow of foreign fighters into 
Syria and Iraq.
    ISIS' spread into North Africa, particularly in lawless 
Libya, has given the group new territory in which to train, 
recruit and attack as we, unfortunately, saw with the brutal 
attacks on Egyptian Christians.
    How long can coalition strikes against ISIS continue? Will 
our Arab partners, who are vital to efforts to send a message 
that this is not just an American fight, continue to support 
our efforts if they feel that we are jeopardizing regional 
security on other fronts?
    Because, not surprisingly, our allies are not just 
concerned about the spread of ISIS' influence. Perhaps most 
concerning at this particular moment in time to our partners is 
the potential for expanded Iranian influence.
    What security guarantees can the United States provide to 
the Gulf States and to Israel? What do Iranian proxies like 
Hezbollah or even Hamas, which appears to have mended its 
relationship with the Ayatollah, look like with even greater 
Iranian financial support?
    Or what do groups that are simply in Iran's orbit like the 
Houthis in Yemen look like with greater financial support and 
what continued action does this spur from the Saudis and other 
G-16 nations to counteract this threat?
    Madam Chairman, we have been talking about ending the 
Syrian for 4 years. If there is no military solution to this 
conflict, how can we move a political solution forward, 
particularly without the Russians or Iranians?
    I look to our panel today to help us understand how these 
conflicts might play out in the coming months and years and 
what effect U.S. policy can have on reaching a positive 
outcome.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. Thank 
you and we look forward to seeing you scoot in and out. And 
thank you, Mr. Higgins, for joining us as well.
    The Chair now recognizes herself for her opening statement. 
In the Middle East, many times events in one country have a 
profound impact in other countries in the region.
    In 2009, President Obama failed to support the protests 
that had erupted throughout Iran, an opportunity that could 
have turned the tide in Iran and the entire landscape of the 
Middle East.
    In late December 2010, a Tunisian street vendor set himself 
on fire to protest abuse by State officials. This act 
ultimately sparked the Arab Spring with similar large-scale 
protests spreading to Egypt, Libya, Yemen, Bahrain and Syria in 
early 2011.
    In Libya and Syria, both Ghadafi and Assad resisted any 
calls for democracy or reform and in fact responded to the 
protest with violence and bloodshed. However, the U.S. 
responses in Syria and Libya were markedly different from each 
other.
    Whereas in Libya the U.S. responded with cutting ties with 
Ghadafi, sanctioning members of his regime and led the push for 
the U.N. to authorize military intervention in the conflict, 
that was not the case with Syria.
    Then Secretary of State Hillary Clinton called Assad ``a 
reformer,'' and that was rather ludicrous. The death toll is 
now over 220,000 in Syria. But if this guy is who we thought 
would be a reformer, well, we did not really assess that 
situation correctly.
    The U.S. refused to take any action against Assad and even 
after Assad crossed President Obama's chemical weapons red 
line, and has done so repeatedly, the United States did not 
respond with military force in Syria like we had done in Libya.
    The decision to not act on the red line caused a large 
ripple effect throughout the Middle East and beyond, as our 
adversaries saw that we don't have the courage of our 
convictions to act and our allies saw that we can't be trusted 
to act and question our resolve.
    Even in Libya where we did initially act, the 
administration failed to ensure stability and now Libya is 
fractured and has become a breeding ground for radicalism as 
extremists from Libya flock to join ISIL, al-Nusra and other 
terror groups.
    This mirrors the consequences of the U.S. withdrawal of our 
troops from Iraq in 2011, leaving a void that Iran was more 
than happy to fill, allowing the regime to gain more and more 
influence over Baghdad and Maliki.
    So the United States' decision to not get involved in Syria 
immediately and to withdraw our troops from Iraq in 2011 played 
a large role in facilitating the rise of ISIL and the spread 
from Syria to Iraq.
    But I am not part of what Jeane Kirkpatrick called the 
``blame America first'' crowd. The responsibility is with ISIL 
and all of these terror groups and not of the United States.
    But the rise of ISIL has exacerbated the humanitarian 
crisis that we have seen in Iraq and Syria. Millions have left. 
Hundreds of thousands have been murdered.
    Religious minorities have been targeted for extinction and 
nearly every country in the region has felt the impact of the 
terror of ISIL.
    The crisis in Iraq and Syria is a cancer and it is quickly 
metastasizing and spreading throughout the region. In Jordan, 
the Kingdom is feeling the burden to try and take care of the 
Syrian refugees and to protect its own borders.
    In Lebanon, there are over 1 million registered Syrian 
refugees and the fighting between Hezbollah and the Lebanese 
Armed Forces has caused instability in the Golan Heights, which 
poses a security threat to the democratic Jewish State of 
Israel.
    In Saudi Arabia, an attack against our embassy in Riyadh 
was foiled when nearly 100 individuals were arrested this week, 
all alleged affiliates of ISIL.
    This is why the administration needs a drastic reassessment 
of our policies. We have got an Iran that remains unchecked in 
Iraq, in Syria, in Lebanon and in Yemen.
    We have ISIL and al-Qaeda resurgent. Assad remains in Syria 
and the sectarian conflict between Sunnis and Shi'a is as bad 
now as any time in recent history. Many questions remain about 
the Syrian train and equip program, the size and the scope of 
the mission.
    The program isn't even up and running yet. By the time the 
program finishes, it could be too late and the situation in the 
region could be worse.
    Many issues remain regarding the proposed authorization for 
use of military force, the AUMF, that the administration has 
sent to Congress, not least of which is the failure to address 
Assad, al-Nusra and other terror groups in Iraq and Syria.
    The administration has failed to develop a comprehensive 
strategy to address all of the threats in Iraq and Syria. But 
until we do, the situation is only going to get worse and we 
will be faced with even tougher decisions down the road.
    And at this time I would like to recognize our members for 
any opening statements they would like to make. Ms. Frankel, my 
Florida colleague.
    Ms. Frankel. Thank you, and Madam Chair, I just want to say 
you so enjoy--you have the--sort of the most diplomatic and 
kindest way of putting some things that I may not agree with. 
But we should learn from you.
    Look, I just--and I enjoyed listening to your remarks. I 
think that this is a very complicated situation and I think 
from my own--my constituents the big concern is just even if we 
just look at recent history is somehow we take action--our 
country takes action--military action.
    We are well intended but the action seems to fail. And I 
will go a little bit further back, Madam Chair, to 2003 when we 
sent troops into Iraq and we toppled Saddam Hussein and I think 
there are some who would argue that that actually helped give 
rise to Iran increasing its power in the region and perhaps the 
fighting or the new government not being inclusive may have 
something to do with giving rise to ISIL.
    I think there are factors that are a lot more complicated. 
So I actually will listen very intently to what you all have to 
say and I thank you for being here.
    Ms. Ros-Lehtinen. Thank you, and I think I should say thank 
you--I am not quite sure. Thank you, Lois.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair. I will be brief.
    I just, you know, talk about this region of the world, it 
is marked by instability for a long time and U.S. intervention 
in that part of the world is complicated because where there is 
no political center there are only sides, and taking sides or 
being perceived to take a side has major political consequences 
as well.
    So when we talk about this part of the region, you know, 
revisionist history is not helpful because there is a lot of 
gray area. There is a lot of nuance.
    It is not black and white and to be strategic and to be 
smart and to use your resources as best you can but to also 
require that regional players also participate fully and don't 
play the United States as they historically have in Iraq and in 
other places.
    Syria, clearly, is a mess--clearly, is a mess. And, you 
know, some people wanted us to believe that if we just 
supported the free Syrian army that we would be supporting the 
good guys against the bad guys.
    But, again, when you look beyond the surface it is so much 
more complicated than that with so many militias and Islamic 
extremists that even as bad as Bashir al-Assad is, the 
alternatives, you know, throughout that continuum could in fact 
be worse, given the history of those groups as well.
    So with that, we have a distinguished group of panelists 
and I look forward to the testimony. I will yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Higgins and Ms. 
Frankel.
    And so now I am pleased to introduce our distinguished 
panel. We welcome back Dr. Seth Jones. He is a director of the 
International Security and Defense Policy at the RAND 
Corporation.
    He is an adjunct professor at the School of Advanced 
International Studies at Johns Hopkins University and has 
served in an advisory capacity to several operational commands 
in the Department of Defense.
    Second, we welcome back General Jack Keane, who is chairman 
of the Institute for the Study of War. The general has served 
in the United States Army for 37 years, rising to the post of 
Army vice chief of staff.
    He has served as a combat veteran in Vietnam, as has my 
husband. Also has served in Somalia, Haiti, Bosnia and Kosovo 
and has commanded the prestigious 18th Airborne Corps and the 
decorated 101st Airborne Division.
    Thank you, General, for being with us this morning and 
thank you for your distinguished service to our country. You 
are a true hero.
    And last but certainly not least, I would like to welcome 
Dr. Tamara Cofman Wittes. Help me out. Wittes. Wittes. Just as 
it--yes, Wittes. She is a senior fellow and the director of the 
Saban Center for Middle East policy at Brookings.
    Dr. Wittes served as deputy assistant secretary of state 
for Near Eastern affairs from November 2009 to January 2012 and 
we welcome you back. Thank you.
    We will begin with you, Dr. Jones.

  STATEMENT OF SETH G. JONES, PH.D., DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Jones. Thank you. Thank you, Madam Chair, Ranking 
Member Deutch and distinguished members of the committee, and 
thanks to the other members here. We have got a distinguished 
group.
    I am going to divide my comments into two sections. The 
first will provide an overview of Iraq and Syrian and the 
broader regional context, and the second will get into some 
recommendations--some preliminary recommendations.
    Let me begin with the wars as they stand right now. I think 
one of the--one of the challenges right now is both the media 
and some administration and other officials try to deal with 
them almost separately and in fact they are quite intertwined. 
And we will see in my comments, it is generally a mistake to 
treat them even sequentially.
    In Iraq right now, the United States remains engaged in a 
counter insurgency campaign against Da'ish, also referred to as 
ISIL or ISIS, and its allies.
    It has lost some ground recently, including in Tikrit, but 
it does still have substantial territory, particularly in the 
predominantly Sunni areas of Anbar, Salahadin and Nineveh. It 
also continues to fund itself through activities like smuggling 
oil, selling stolen goods, kidnapping, seizing bank accounts 
and the smuggling of antiquities.
    In Syria, the U.S. is somewhat involved in the insurgency 
campaign. It has provided limited support to rebels, which I 
will come back to in a little bit through the train and equip 
program.
    But U.S. air strikes have been insufficient to seriously 
degrade Da'ish in Syria. More recently, there has been a surge 
of rebel activity and I wanted to highlight with our focus so 
much on Da'ish or ISIL in Syria.
    One of the groups that has clearly benefited from the gains 
in rebel activity is the al-Qaeda affiliated Nusra Front. It 
probably has more fighters, more money and more territory than 
at any time since its creation.
    In 2011, it retains a stronghold in northwestern Syrian 
areas like in Idlib. So I want to highlight my concerns with 
the al-Qaeda affiliate now in Syria and the gains that it has 
made.
    There, obviously, are differences between Syria and Iraq 
but I think as you look at the way the wars have transpired, we 
have a range of issues. The movement of extremist groups and 
criminal networks operating on both sides of the border are 
moving back and forth.
    The role of or the use of Turkey as a--Turkish territory as 
a pipeline for groups coming into the region and then, 
obviously, Irani involvement in both wars as being just three 
examples of how intertwined those wars are.
    U.S. and allied efforts, obviously, need to consider a 
range of issues including efforts to undermine the ideology of 
extremist groups, to target key leaders, to build partner 
capacity, to engage in political dialogue including Iraq and 
other steps.
    But I am going to focus my remaining comments on three 
issues. The first is interdiction efforts in Turkey and other 
neighboring states. Turkey, in particular, has taken some steps 
to crack down on foreign fighter flows.
    It has added, for example, thousands of names to its banned 
from entry list into Turkey. But, in my view, these steps are 
still not sufficient. Turkey remains the most important 
pipeline for foreign extremists coming into both Iraq and Syria 
contexts.
    As I--as I provide more material in the written testimony, 
there are a number of useful examples since World War II of 
successful efforts to crack down on border interdiction.
    So I think there are useful lessons, again for aerial-
ground maritime surveillance, strengthening capacity and 
resources of border security personnel, et cetera that are 
still worth pursuing in Turkey.
    The second issue is the train and equip program. In my 
view, the U.S., including Congress, should put a pause on this 
program. I am concerned for several reasons.
    First, it seems to me it makes little sense to expend U.S. 
financial, diplomatic, military and other resources without a 
long-term strategy and a desire to end-state in Syria. The U.S. 
needs to first agree on a long-term strategy and then design a 
train and equip program to achieve that end state.
    In addition, I think it is also problematic to train Syrian 
rebels to counter Da'ish, or the Islamic State, and not what 
virtually all rebels are trying to do, which is--which is to 
end the Assad regime that has used chemical weapons on its own 
population.
    And then, finally, it strikes me also as problematic that 
the train and equip program, the way it is set up right now, at 
least as I understand it is to train, advise and assist local 
security forces outside of Syria and then to not have on the 
ground training in Syria itself.
    Virtually every successful effort that I have seen or have 
been involved in myself--Philippines, Colombia, a number of 
other places--have required on the ground training. It provides 
a way of giving them hands-on capacity as well as understanding 
how they are actually being used.
    So for those reasons and many others, I would--I would 
strongly urge taking a pause to this program until some of 
these issues get settled out.
    And then finally, let me just say on the AUMF, in my view, 
Congress should most likely pass an AUMF that is an omnibus, 
and we can talk about the details. I lay it out in the 
testimony.
    No geographical limitations, in a sense, but that get into 
issues of threat, a fairly broad definition of groups--happy to 
give you more specifics--specified purposes for which military 
forces for which military forces may be used, a requirement to 
report to Congress and then, finally, a renewal clause.
    So let me just conclude by saying the biggest issue and the 
biggest challenge we have in Iraq and Syria is this war is 
spreading. It is spreading into West Africa, East Africa, North 
Africa.
    We see Da'ish and the Islamic State rising in South Asia. 
We have seen arrests now in the Pacific Rim. If we do not begin 
to get more of a handle on it, we are going to see this spread 
across multiple regions, including outside of this committee's 
jurisdictions.
    Thank you.
    [The prepared statement of Mr. Jones follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    General Keane.

STATEMENT OF GENERAL JACK KEANE, USA, RETIRED, CHAIRMAN OF THE 
             BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Thank you, Madam Chairman, Ranking Member 
Deutch, distinguished members of the committee for inviting me 
back to testify. I am honored to be with such a distinguished 
panel today.
    Attached to my written testimony are three maps that are 
prepared by ISW for your reference, and let me just correct 
something in your statement, Madam Chairman. I am a Vietnam but 
I did--my troops served in Somalia, Haiti and Bosnia.
    In my judgements, it is indisputable that U.S. policy 
failures in Iraq and Syria enabled Iranian expansion in the 
Middle East, enabled ISIS to reemerge, establish a sanctuary in 
Syria, expand into Iraq, Egyptian Sinai, North Africa and South 
Asia while conducting daily acts of barbarism against humanity 
and civilization, enabled the al-Qaeda, particularly Jabhat al-
Nusra, to expand significantly in Syria to include the Khorasan 
Group, which has committed to out-of-region attacks against the 
United States and Europe while expanding in north and northeast 
Africa, enabled Assad to kill over 220,000 Syrians while 
forcing the displacement of over 7 million people from their 
homes, a humanitarian catastrophe, as the Syrian nation is 
systematically destroyed, which is an accelerant for jihadist 
groups regionally and globally.
    One cannot simply blame the underlying factors that exist 
in the region and absolve the United States of specific policy 
decisions that have unintended adverse consequences. The facts 
are the following on Iraq.
    By 2009, the Sunni insurgency supported by al-Qaeda and 
Iranian-backed Shi'a militias and others were defeated. 
However, beginning in 2009,the new administration begins to 
pull away from Iraq politically. Iran regains influence.
    In 2010, Maliki loses the election by one vote. But instead 
of helping his preferred opponent, Allawi, to form a new 
government, the United States inexplicably backs Maliki.
    In 2011, the U.S. pulls out all troops. The al-Qaeda in 
Iraq reemerges as ISIS. In Syria, the Arab Spring reaches Syria 
in 2011. Despite Assad's obvious military advantage, the 
opposition is succeeding. Many predict the regime will fall as 
the opposition seeks additional ammunition and weapons to fight 
the regime.
    While the President calls for Assad to go, he surprisingly 
refuses the opposition request. Iran begins daily flights of 
supplies and ammunition plus the commitment of Quds Force 
advisors to include Qasem Soleimani.
    Iran deploys its proxies, 5,000 Hezbollah from Lebanon and 
at its peak 20,000 Iraqi Shi'a militia. The momentum shifts to 
Assad's favor. The al-Qaeda recognizes the opportunity and 
moves in, and ISIS in 2012 deploys from Iraq to northeastern 
Syria to establish a sanctuary.
    To avoid a regional spillover war, which we certainly have 
now, Clinton, Panetta, Dempsey, CIA Director Petraeus make a 
formal recommendation to arm the opposition in the summer of 
2012.
    The President refuses again. The killing continues. Assad, 
in 2013, as you pointed out, Madam Chairman, uses CW--chemical 
weapons--and cross the U.S. red line. But still the President 
does not act.
    ISIS invades Iraq in 2014. The Maliki government requests 
assistance. The President refuses. Iran begins immediate 
assistance--Quds Force advisors, Qasem Soleimani, daily flights 
of supplies and ammunition.
    In 2014 Mosul falls. The Maliki government, again, requests 
air power and the President refuses. Not until August, some 8 
months after the ISIS invasion, does the United States respond.
    Despite ISIS' recent setbacks in Iraq, as you can see on 
the ISIS sanctuary map, it still holds considerable territory 
and influence in Iraq and remains on offense today while it has 
expanded its territorial control and influence in Syria.
    Moreover, it has expanded its influence in what is called 
the near abroad, as you can see on the global rings map. Its 
affiliates, or wilayats, are expanding as ISIS is rapidly 
becoming the new face of radical Islam and competing with al-
Qaeda for control and influence. Those are the black stars on 
that map.
    What about the U.S. strategy? In Iraq, we are taking less 
than half measures to assist the Iraqi security forces, the 
Kurds and the Sunni tribes, which stretches out the time to 
defeat ISIS as casualties mount.
    In Syrian, there are no plans to defeat ISIS. To do so 
requires an effective ground forces supported by air power. 
There is none. U.S. policy is fundamentally inadequate to 
defeat ISIS.
    As to Assad, he must go. Allowing Assad to continue his 
genocide sows the seeds for generational regional disorder and 
empowers expansionist Iran. As to Iran, the United States has 
no strategy to stop the regional hegemonic aspirations of the 
Iranian regime. On the contrary, the U.S. is desperately and 
naively, in my judgment, moving to accommodate Iran on a 
nuclear deal that Iran's aggressive behavior will change as it 
supposedly joins the community of nations.
    In conclusion, the appalling lack of a comprehensive and 
coherent strategy to defeat radical Islam 22 years after the 
first attack on the World Trade center and almost 14 years 
after 9/11 is a generational policy failure.
    To date, we don't define radical Islam. We don't explain 
it. We don't try to understand its appeal. We don't counter and 
undermine the ideology, which is grounded in a religious belief 
system.
    This is a regional problem become a global problem and the 
countries who have a vested interest in defeating radical Islam 
should join together in an alliance to develop a comprehensive 
strategy.
    The balance of power in the Middle East is shifting against 
the United States' regional interest and against the United 
States' security.
    There is much that can be accomplished with our allies to 
include a Syrian strategy but the reality is American power is 
considered and our credibility is at an all-time low.
    There are no simple answers or solutions. But without 
strong U.S. leadership, our adversaries will continue to be 
emboldened. Our friends, out of fear, are susceptible to poor 
decisions while the Middle East region and the world becomes a 
more dangerous place.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]
    
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, General.
    Dr. Wittes.

STATEMENT OF TAMARA COFMAN WITTES, PH.D., DIRECTOR, CENTER FOR 
                MIDDLE EAST POLICY AT BROOKINGS

    Ms. Wittes. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch, members of the committee. I appreciate the 
invitation. I must emphasize, as always, that I represent only 
myself. Brookings does not take any institutional positions on 
policy issues.
    The Middle East is disordered more today than in perhaps a 
half century and ISIS is only a symptom of this underlying 
breakdown in regional order.
    The upheaval in the region has likewise generated newly 
assertive regional powers like Turkey, new opportunities for 
longstanding troublemakers like Iran and Hezbollah, and 
sometimes bitter disputes between Arab States.
    Of course, this disorder is itself the product, the same 
long-building pressures that generated the Arab Spring. Iraq 
and Syria may be our focus today, but marginalizing extremist 
movements like ISIS demands attention to other weak and fragile 
states in the region.
    It is no accident that Syria and Libya are the most 
disordered and violent parts of the region today because these 
are the places where leaders, having failed to govern in a 
manner that could have prevented mass dissent, then sought to 
repress their people through the use of force.
    These brutal power-hungry shortsighted men broke their 
crumbling states to bits and drove their societies to civil war 
and it is the terrible choices of these terrible leaders more 
than anything else that created the openings that al-Qaeda, 
ISIS and other sectarian killers across the region now exploit.
    The roots of the region's upending in this fraying and 
broken social contract remind us that ISIS is not the cause of 
today's disorder and it is not the disease.
    The broken state-society relationship is what must be 
addressed if the region is to return to some form of stability. 
This means that whatever the United States does militarily in 
Iraq and Syria we must focus our strategy on the politics.
    In Iraq, the government has given non-state militias, some 
under Iranian influence, a large role in the fight in ways that 
have exacerbated Sunni anxieties and made the fight against 
ISIS harder.
    That said, the operation in Tikrit last month in which 
Iranian-supported militias failed and the Iraqi Government 
relied on American air support for victory, showed the limits 
of Iranian influence.
    The U.S. strategy rightly has the Iraqi Government own 
responsibility for its own choices in this battle for its 
territory and the hearts and minds of its people.
    This strategy ultimately stands or falls on Iraqi Prime 
Minister Abadi's ability to move forward with the kind of 
political and security steps that will build the confidence of 
Iraq Sunnis in the Iraqi state.
    In Syria, as we have been discussing, U.S. efforts to equip 
and train cooperative Syrian opposition forces will take more 
than a year, perhaps more than two, to have any meaningful 
battlefield impact, and meanwhile a coalition of more extremist 
Islamist groups is successfully routing Syrian military forces 
in Idlib Province.
    So the question is what will follow the withdrawal of 
Assad's forces--extremist rule or civil administration?
    The U.S. must urgently focus on working with its allies and 
with Syrian opposition forces on the ground to shape the 
situation so as to advance the latter.
    Let me talk about our partners in the region. The fall of 
Mosul last June brought a momentary unity between American 
priorities and those of our traditional regional partners and 
allowed the establishment of this anti-ISIS coalition. But it 
is a thin coalition and it has been from the start.
    Today, Saudi Arabia and others seem to prioritize the 
Iranian threat over the threat from ISIS and the military 
operation in Yemen is evidence for this.
    The reassurance that our partners are looking for is to see 
the United States demonstrate its recognition and its readiness 
to push back against Iran's destabilizing activities around the 
region, and the primary arena in which Arab states wish to see 
that from the U.S. is in Syria.
    So efforts to help expose and push back against those 
Iranian behaviors should be a key element of America's policies 
in the coming months, and I would say that is true regardless 
of the outcome of the nuclear talks because I think that 
Iranian behavior will continue regardless of the outcome of the 
nuclear talks.
    In addition, the United States must attend to the political 
components of its policy in Iraq and Syria to ensure that 
territory and people liberated from ISIS or from Assad find 
reliable security from a responsible civil administration, not 
rough justice from extremist militias whether Sunni or Shi'a.
    Finally, the United States must address the underlying 
vulnerabilities that produced this upheaval and gave space for 
ISIS across the region.
    We must devote greater attention to supporting governments 
like Tunisia, who are using political compromise instead of 
violence to resolve disputes.
    We should help local partners forge meaningful governance, 
not just a security presence, in ungoverned spaces like the 
Sinai.
    Ultimately, building resilient societies that can 
marginalize extremists requires governments that can win 
citizens' trust and loyalty and it requires systems that can 
offer young people meaningful opportunities to fulfill their 
long-denied dreams so that they don't place their hopes in a 
world after this one.
    Thank you.
    [The prepared statement of Ms. Wittes follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much to all of our 
panelists and I will recognize myself for the first round of 
questions.
    Despite the clear and vocal calls for a comprehensive 
strategy, a U.S. policy in Iraq and in Syria, the 
administration continues to treat the conflicts as separate or 
at least as situations that should be dealt with one at a time, 
and this is either a fundamental misunderstanding of the issues 
at hand or willful ignorance due to a political calculation, 
namely, the administration's misguided and naive nuclear 
negotiations with Iran.
    It must acknowledge that air strikes alone will not be 
sufficient to defeat ISIL in either Iraq or in Syria, that 
Assad must be removed from power and that Iran, even if it is 
the enemy of our enemy, is still an enemy.
    In a hearing yesterday, former Ambassador to Syria Robert 
Ford testified that if the United States allies with Iran, we 
are playing into ISIL's narrative and helping in its 
recruitment.
    So I ask the panelists do you believe that we are 
cooperating with Iran directly or indirectly against ISIL and, 
if so, is this helpful to our national security interests?
    Dr. Jones, then General Keane--whoever wants to tackle 
this.
    Mr. Jones. Sure. I will start.
    Look, I think in particular in Iraq there is and there are 
areas where the U.S. has worked with Iranian-backed militia 
organizations in various areas. The campaign has involved a 
complex set of state governments including Iraq as well as sub-
state actors, Kurds, but also Iranian-backed Shi'a militias.
    So I think the answer to your question is yes, the U.S. has 
cooperated somewhat with Iran, particular at the substrate 
level. There have been discussions as well about the political 
issues, Sunni-Shi'a issues with the--with the Iraqi Government 
that Iran has been involved in.
    I think, ultimately, the U.S. is in a very complicated 
position here but I do agree with your comments that a strong 
allied relationship with Iran, if that is the direction we go 
in, would be very counterproductive and would certainly walk 
into an anti--would certainly help with the ISIL narrative.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Jones. It is exactly what they are saying.
    Ms. Ros-Lehtinen. General?
    General Keane. I agree with the doctor about Iraq's level 
and repeat it. But in Syria, I think, really, the elephant in 
the room in Syria with the administration's reluctance to 
provide assistance to the Free Syrian Army despite a very 
credible and experienced national security team that 
recommended that, as I pointed out in my testimony, I think is 
Iran.
    It is the elephant in the room in the sense that we have 
been, because the nuclear talks and establishing a deal, I 
think, is the unstated foreign policy major objective of the 
administration.
    It has handcuffed our ability to do what we should have 
done in Syria because of a potential setback from the Iranians. 
So de facto our policy decisions in Syria have certainly helped 
Iran bona fide establish a client state with Syria, contributes 
to their expansionist policies and certainly encourages them to 
do what they are doing right now in Yemen, which if they are 
able to achieve what they want to achieve in Yemen--political 
and military control in Yemen--then they change the strategic 
balance of power in the region by gaining control of a 
strategic waterway at the Gulf of Aden at the straits of Bab-
el-Mandeb and affect and control and leverage shipping that 
comes in and out of the Suez Canal--a major objective for the 
Iranians that they would not have thought of without the 
progress that they have made in Syria.
    Ms. Ros-Lehtinen. Thank you. Doctor?
    Ms. Wittes. Thank you.
    You know, I think part of the challenge is that our 
regional partners who are absolutely necessary to any 
successful outcome in Syria have until very recently been 
pretty divided themselves on the question of what should follow 
Assad and what kind of political order they would see as a 
desirable end state, and in many ways their elevation of the 
Iranian threat above the threat of ISIS, above the threat of 
political Islam, is a product of just the last year or so.
    But up until recently, different Arab states were 
supporting different factions in the Syrian opposition and I 
think that vastly complicated any ability we had to forge unity 
among them.
    Now, there might well have been a time early in the Syrian 
conflict when a more forward-leaning American policy would have 
created that unified front. But I think we are long past that 
now, unfortunately.
    Ms. Ros-Lehtinen. Thank you very much.
    I have other questions but I will wait for the next round. 
Mr. Deutch, our ranking member.
    Mr. Deutch. Thank you, Madam Chairman.
    The Iranian foreign minister was on American television 
last night and was talking--when asked about Iranian influence 
in the region and the way that it is perceived pushed back 
against the argument that anyone could perceive what is 
happening now in any part of the region as a Shi'a-Sunni 
conflict--that there is absolutely nothing to that.
    I would like to hear from our panelists a response to that 
and if you disagree with that assertion what role, ultimately, 
can the United States play if his assertion is wrong and it is 
indeed perceived that way among our allies and those who are 
not?
    Mr. Jones. Chair, I will start.
    I think we are often prone to gross generalizations about 
the state of sectarianism. Being recently, for example, in 
Djibouti and looking closely at the situation in Yemen, one can 
easily gravitate to an argument that this is a Saudi--because 
they have been involved--Iran proxy war.
    But the reality when you get onto the ground into Yemen and 
look at it is there are a range of tribal politics involved.
    The Houthis have been battling Saudi Arabia for a long 
time. They are not an arm of the Iranian Government. They do 
get some assistance.
    So I would say the answer to your question is there is, 
clearly, an Iranian grand strategy for the Middle East, for 
North and East Africa and other locations that as caused them 
to provide assistance to some groups and not others--some 
governments and not others.
    But when you actually look on the ground, whether it is 
Syria or Iraq or Yemen or take your pick, I mean, I think we do 
have to understand that we are also bringing in the very 
localized elements of the dispute.
    So I would say that there is a combination of both local 
and these grand strategic issues that is going on in all the 
conflicts we are talking about here.
    General Keane. I agree. I mean, one of the things that 
happens when you look at this region, because of the 
sectarianism that has been there historically, that we have a 
tendency to throw that out as the underlying cause for all the 
problems we are having.
    It certainly is a contributor but there has been a lot of 
peace between these sectarian groups as well. Iranians--I mean, 
I, clearly, think this is a geopolitical strategy of theirs to 
dominate the region, to influence and dominate Shi'a countries 
as well as Sunni countries and I believe that is what is 
driving them.
    Like other radical Islamists, they will take advantage and 
manipulate this sectarian divide as much as they can to their 
own geopolitical ends.
    Mr. Deutch. Ms. Wittes.
    Ms. Wittes. I think both sides of this regional power 
struggle, and I would agree it is a regional power struggle, 
have found a sectarian narrative useful.
    It helps them rally around the flag, it helps them mobilize 
allies and, unfortunately, they have fed off of one another 
repeatedly whether it is Bahrain or in Yemen or in Syria.
    Once that narrative takes hold and is advanced by one side 
the other side ups the ante, and we have seen this in the 
regional media. It has been quite vicious and nasty.
    But I think that the problem with just looking at it 
through that lens is that it becomes a self-fulfilling prophecy 
at a certain point, just as we saw in the Balkans in the 1990s.
    At a certain point, when people have lost the ability to 
find security through the state or through the government, they 
are going to fall back on community identifies and if everybody 
around them is choosing friend or foe according to sectarian 
identity they will be forced to do that, too.
    So the reality for Syrians, sadly, today I think is a 
reality of sectarian conflict. It didn't have to be that way 
but that is where we are.
    Mr. Deutch. And so then where should it go and, 
specifically, to your--the point you made about young people 
who, particularly those in their teens, early 20s, who have now 
endured 4 years of this, many of them displaced or refugees, 
what is the message from the United States, going forward?
    What do they need to see to counter their understandable--
as you put it, their understandable decision in many instances 
to just fall back into tribal affiliation?
    Ms. Wittes. Yes, I think in the Iraqi case there is a 
fierce debate going on and an effort to try and demonstrate 
that there is space within Iraqi politics and the Iraqi state 
for all of Iraq's people.
    I don't know whether the angels will win that argument. I 
certainly hope so, and I think, by the way, that both Iran and 
our Sunni Arab partners, have important roles to play in 
helping to stabilize Iraq by making sure those decisions on 
behalf of political inclusion, like establishing a national 
guard, move forward.
    Syria, I think, is much harder because the conflict is so 
severe because half the population has been displaced.
    But as part of what we need to do, whatever the political 
architecture, we need to generate within society over the long 
term the ability to build dialogue, to build intercommunal 
dialogue, to build mechanisms for conflict resolution so that 
while those tensions will always be there, they don't erupt 
into violence.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now another Florida colleague, Mr. Clawson, of a great 
state.
    Mr. Clawson. Thank you to the gentlelady for doing this 
committee hearing. I think it is great to have knowledgeable 
folks and let us shed some sunlight on complicated topics, and 
that takes time and too often up here we don't have enough 
time. So thank you, Congresswoman, for doing this.
    It seems to me that our objectives out to be--if they are 
not they ought to be, number one, protect Israel in this 
region, number two, to counterbalance I think what you call 
this grand--I don't remember the exact rhetoric you just used--
grand Iranian strategies.
    Is that right? And so, at least from my seat, it seems like 
those are the two things that we ought to be trying to do.
    Having said that then, I have the following observations 
then you all could react to. Number one, it feels like we are 
talking too much to the wrong people and not enough to the 
right people and not enough allegiance is going on--you know, 
alliances going on with good friends that might be able to band 
together and do something about this instead of talking to the 
bad guy.
    It just feels like strategically I don't know who I am 
doing a joint venture with here--what is going on, number one. 
Number two, it feels like as the region gets more dangerous, 
that you all point out, why are we not giving more military 
assistance to Israel. It feels like an obvious question.
    Number three, why do we want more nukes in the region as it 
becomes less volatile, and number four, you know, I voted no on 
the Syrian involvement last year.
    It felt like if we didn't have a grand strategy to 
counterbalance this Iranian grand strategy, as you all call it, 
the isolated pinpricks just throw gasoline on the fire. It is 
hard to manage from halfway around the world with people we 
don't trust and don't really know very well and it just makes 
the situation worse.
    So while I am all for spending more military dollars to get 
ready for a coming crisis, I don't consider myself an 
isolationist because I don't like, you know, these isolated 
actions that aren't linked together and seem to take us 
nowhere.
    So I have given you four observations there. There is three 
of you. If each one of you take one, we might, you know, might 
get somewhere here.
    General Keane. Well, I will start. It is a fact that, and I 
agree with you, we spend a lot of time talking to our enemies 
and not our friends.
    When you travel in the region and talk to our allies in the 
region, I mean, it is unmistakable that over the last several 
years they have lost confidence in us.
    We do have a credibility issue with them and it is because 
of our policy decisions that I enumerated in the oral statement 
as well as the written statement that are driving those 
conclusions.
    Those are very real, and in a sense it handicaps putting 
together the kind of comprehensive strategy that we do need, 
one, to deal with the Sunni-based radical Islam, which is a 
generational challenge we are facing, and number two, to 
counter the Iranians effectively.
    I am of the mind that the administration has this thought--
that Iran, being the country it is, a powerful country itself, 
has a right to a sphere of influence in the region and as such 
we must work with that country to achieve common objectives in 
terms of regional objectives.
    It does not embrace the 30-plus year history of Iran's 
barbarism and proxy wars that it has fought and the killing of 
Americans from 1983 all the way to 2008 and puts that aside and 
chooses to treat Iran as a country that aspires to be in the 
community of nations and therefore tries to influence in moving 
in that direction.
    I think that naiveness and sophomoric approach to a serious 
problem, to be quite frank about it, has so antagonized our 
allies in the region that it becomes their number-one issue 
with us because they had always believed that the United States 
strategically was a counterbalance to Iranian influence in the 
region.
    Mr. Jones. If I could just pick up on your first point, I 
would add one other major U.S. interest and that is to protect 
the homeland, and the concern I have, particularly on the 
Syrian side, is that, as U.S. intelligence officials have said 
publically, that we have two groups--Khorasan out of looser 
territory and the Islamic State more kind of inspired but are 
plotting or encouraging attacks against the homeland coming 
from Syria.
    And second, we have the highest percentage of foreign 
fighters in the history of jihadist battlefields--the recent 
history--coming in particular to Syria to fight, and we don't 
have a long-term strategy right now.
    We have got a bit of a half measure with the train and 
equip program but in my view that is not tied to a long-term 
regional--certainly, not a Syrian strategy.
    Mr. Clawson. So you would--I think the general and I, you, 
then the three of us would be in agreement to go big or don't 
go. If the problem is that serious, then either let us not mess 
around with it or let us go big and get something done with our 
allies.
    Mr. Jones. Just to be clear, when you say go big you mean--
--
    Mr. Clawson. Big enough to make a difference--to make us 
safer.
    Ms. Wittes. Perhaps I can weigh in on that component 
because I think that--I think it is important to understand the 
military tool as one tool in the toolbox but a strategy looks 
at how all the tools fit together, right.
    And so a good strategy uses military force directly or 
indirectly as a means to an end. I think one of the hard 
lessons that we have learned over the last decade and a half is 
about the limitations of military force.
    It can achieve a lot but there are limits on what it can 
achieve, especially if it is not in the context of a broader 
political strategy.
    So as we think about how to push back on Iranian influence 
around the region, we can certainly increase--you know, talk 
about increasing assistance to our friends and partners in the 
region.
    I am sure that when the GCC partners come to Washington 
later this month some of them--maybe all of them--will have a 
shopping list. But I would argue that that is not the most 
important thing they are looking for in terms of reassurance 
and support from us.
    What they are looking for is our willingness to use all of 
our policy tools to push back on Iran around the region and I 
think in some ways the most important tools we have are 
intelligence to expose what we see and what we know about 
Iran's activities and cooperation with our regional partners on 
the politics and diplomacy.
    If we can work diplomatically to resolve some of these 
conflicts and grievances, that gives the Iranians much less 
room to operate. The upheaval of the last 4 years has given the 
Iranians far more opportunities in far more places and we need 
to try to shrink that down.
    Ms. Ros-Lehtinen. Thank you, Mr. Clawson.
    Another Florida colleague, Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair.
    I want to thank all the panelists for being here and, of 
course, General, for your service to our country. I deeply 
appreciate that.
    So with that said, I just wanted to say that, General, I 
am--I will try to say this as kindly as possible. I am 
perplexed of you laying the blame on this administration, first 
of all, for what is going on in the Middle East--first of all, 
without even commenting on the fact that another administration 
took us--military action into Iraq in the first place.
    But I want to get past that because I think to blame the 
United States of America on what is going on in Iraq, Syria, 
Libya, Iran, Yemen and every other place in this world is 
ridiculous. I think it is unfair.
    And I do have a question, though, and my question is what 
role does a corruption of these governments, the oppressiveness 
of these governments, the poverty in the country and the lack 
of human infrastructure to replace these governments.
    How does that affect what is going on? And this is for all 
of you.
    General Keane. Well, first of all, I didn't blame the 
United States for everything that is wrong in the Middle East. 
I quite frankly said that our policy decisions enabled these 
activities and I think that is an important distinction to 
make.
    We are--we are contributors to our problem. I mean, it is 
conventional wisdom to say that the underlying factors in the 
Middle East are the real cause of all of these problems and we 
should absolve the United States of any accountability or 
responsibility and those underlying factors are the ones that 
you are reaching out to, and I certainly understand that.
    The region, by and large, is run by repressive regimes. 
Almost every one of them has some degree of repression in it. 
The fact is the Arab Spring was about people seeking political 
and social injustice--reform of political and social injustice 
and economic opportunity.
    There is political incompetence in the region and a lack of 
moral courage to make change. There is historical sectarianism 
that is in the region.
    But I am also suggesting that something has fundamentally 
changed about the United States' role in that region in the 
last several years compared to what it has historically been, 
and I tried to point out to you those mistakes--those policy 
mistakes----
    Ms. Frankel. Excuse me. How about the--how about going into 
Iraq in the first place? Do you think that was a good decision?
    General Keane. I think the decision to go into Iraq based 
on the information that was provided this Congress, the U.N. 
thought it was the right decision.
    Ms. Frankel. Was that a good decision?
    General Keane. Yes, at the time----
    Ms. Frankel. Oh, it was? Okay.
    General Keane [continuing]. Based on what we did.
    Ms. Frankel. All right. Well----
    General Keane. Now--no, wait a second. Let me--let me--let 
me finish the answer. If, given what we know now--we justified 
going into Iraq based on WMD. Given what we know now, would I 
make that same decision? No.
    Ms. Frankel. Okay. So--okay. Let me ask Dr. Wittes. Could 
you comment on my question?
    Ms. Wittes. I think that we have to look at all the sides 
of the equation here. There is no question in my mind that some 
American decisions have exacerbated the anxieties of our 
partners in the region.
    There is no question in my mind that the invasion of Iraq 
did help to crack up this regional order. But as I said, it was 
breaking down anyway. It definitely gave it a push.
    But I think the most important point I would make is that 
our regional partners are anxious anyway because the region 
that they knew, the status quo they counted on and befitted 
from is gone and it is never coming back, and they don't know 
what is going to replace it.
    They don't have a vision themselves for what they want to 
replace it and so right now they are mistrustful of one 
another's motives.
    They are anxious about the balance of power, which they do 
perceive as turning against them because of Iran's activities 
around the region and because of the rise of political Islam.
    They are deeply worried about the degree of violence and 
the spillover and the refugees and the implications for their 
stability. And yes, they have some anxieties about the U.S. 
role.
    But in that context, our role is going to be incredibly 
complicated and incredibly controversial almost no matter what 
we do. And so hewing to our own interests and being very 
transparent with our partners about what we are doing, what we 
are not going to do and why seems to me that would--that would 
be the best way to address the problem.
    Mr. Jones. Can I briefly answer or are we over time? I will 
be brief.
    Ms. Ros-Lehtinen. Please go ahead.
    Mr. Jones. I think when you look at, particularly since the 
rise--the Arab uprisings, when you look, for example, at World 
Bank data, in the region--in the region this subcommittee deals 
with, you see a categorical decline across all major governance 
indicators.
    One factor that has contributed to what you have outlined 
is weakening governance across the region--across North Africa, 
East Africa and the Middle East.
    In that vacuum, from Libya through Yemen up into the Middle 
East, in that vacuum we now have a range of actors that have 
pushed into that vacuum sub-state actors--the Islamic State, 
al-Qaeda in a few locations.
    We have state actors like Iran. I think because of that 
situation this then puts the United States in a very important 
position. With the collapse--weakening of governance in a range 
of these cases and actors filling in, whether they are sub-
state or state, what role does and should the United States 
play in filling in? That is diplomatically, economically and 
militarily.
    I think that is where--and that is really the question to 
ask based on the events over the last several years. But I 
think the data on this is actually pretty clear. We have got 
weakened--severely weakened governments.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    Mr. Meadows of North Carolina.
    Mr. Meadows. Thank you, Madam Chairman. It is refreshing to 
not only hear a diversity of answers but I can honestly say I 
followed each one of you, reading comments and work that you 
have done and continue to do in this particular issue.
    So my request of you is the balance of diplomacy versus 
more military intervention versus credibility because I think 
that the balance of those three elements I see a lack of 
credibility within the region right now in terms of if we say 
something do we really mean it.
    Are we going to be there like we have historically or is 
this a new era? How do we start to restore that, and I will 
start with you, Doctor.
    Ms. Wittes. Thank you. It is--it is a challenging question. 
I think that in many ways the anxieties right now in the region 
are about intentions and objectives, not about means, and I 
think that if we had a stronger dialogue and clearer common 
ground with our partners on what we together are trying to 
achieve then we can debate the means.
    Mr. Meadows. Do you think we know that? I mean, because 
here I am sitting in Congress and I am not sure what we are 
trying to achieve, if we really look at it. I know we want 
peace and everybody wants peace and it is really easy to say 
that.
    But if we look at it from a strateg or a tactical point of 
view, I am confused on what our objectives are, specifically 
with Syria--you know, where our intel is less than it is in 
other parts of the region. Let us put it that way.
    So, I mean, can you clearly define what our objective or do 
you know at Brookings what our objective is or should be?
    Ms. Wittes. Well, I think what we have heard from the 
administration is a dual objective, which is to push back ISIS 
in Iraq and Syria and at the same time to build up a stronger 
opposition force that can get to at least a hurting stalemate 
in the conflict with Assad so that he then is willing to 
negotiate. At the end of the day, civil wars, you know, only 
end in a couple of ways--either one side vanquishes and 
exterminates or expels the other or they fight to the point 
where an external power can help, sometimes impose, sometimes 
negotiate a political solution and that is guaranteed by 
outside powers. That is how civil wars typically end.
    We wouldn't want the first outcome so we should be driving 
for the second and I think that--you know, to the extent the 
administration has articulated a long-term vision that is its 
vision.
    The question is how do we get there. And one of the reasons 
I highlighted in my testimony the importance of ensuring that 
where we push back ISIS or where the rebels push back Assad we 
have something in place to replace it that is not extremist 
rule is because it helps us drive toward that solution.
    For example, a number of our partners have talked about the 
idea of establishing safe zones in northern Syria and areas 
where the rebels have liberated territory.
    What is happening in Idlib right now is that the rebels 
pushed, Assad's forces fell back and now the regime is bombing 
from the air.
    So the remaining guys who were working for the Syrian 
Government and could be the kernel of a civil administration 
are fleeing like every other civilian in the area and that 
leaves these towns to the rebels--the extremists. So that is 
what we need to try and fix.
    Mr. Meadows. So let me--let me go back, because Dr. Jones 
mentioned we are having more foreign, and I believe it was you, 
Dr. Jones, that was talking about we have more foreign 
fighters' intervention. And so when they are expelled from 
Syria they come back to the United States, to Europe, to 
wherever because part of the problem we have in Syria is that 
we had trained fighters that were in a neighboring country that 
actually came here.
    And so we call it ISIS today. It was actually known by a 
different name just a few months ago. And so if we expel them 
without really having some meaningful military intervention, do 
we not just transport the extremist problem to other parts of 
the world?
    Mr. Jones. I think the pattern of jihadist activity we have 
seen in Iraq and Libya, in Afghanistan and Pakistan is they 
will either go back home or they will go somewhere else and 
bring instability, unless they die on the battlefield.
    The issue then on the military tools is I think I would 
support Clausewitz on this--that they--the military and the 
political goals need to be intertwined, which is where I think 
with programs like Syrian train and equip they are not exactly 
meshed. If we are going to train Syrian rebels, Syrian rebels 
are predominantly focused on the Assad regime. So trying to get 
them then to focus on the Islamic State, in my view, means that 
the military and the political goals are not intertwined 
directly.
    And so I think that is where I would say we have got to 
focus on bringing those two together.
    But, look, there is a war going on so the military tool is 
a necessity. They are fighting. We can try to work the 
political establishment and we should work for deals in both 
countries.
    But there is a war going on.
    Mr. Meadows. I am out of time and I am going to yield back 
to the chairman. General Keane, can you explain to me why we 
had more missiles that were launched into Israel from Gaza than 
sorties that we have actually conducted within Syria at this 
point and expect a different result?
    I call it Operation Powder Puff with what we have done so 
far in Syria. Do we need to have more meaningful military 
intervention? And I yield back.
    Ms. Ros-Lehtinen. Very good. We will allow General Keane to 
answer, if he would like.
    General Keane. Well, the Syrian strategy, from a military 
perspective, is a complicated one, to say the least. I mean, 
just thinking through it makes your head hurt.
    But, frankly, arming 5,000 Free Syrian Army each year--new 
recruits, not an organization--where are they going to go? The 
Free Syrian Army is down to several brigades.
    At one time it did make sense to strengthen that 
organization when it really had some robustness to it but we 
passed that opportunity.
    ISIS recruits on average, according to our intelligence 
services, 1,000 a month and steady--still doing that. That is 
12,000 new recruits that they are getting a year. So this is a 
fig leaf operation that has no connection to anything 
consequential.
    I think we should listen to our allies, which have been 
telling us that, look, we are all for dealing with ISIS but we 
cannot deal with ISIS while the Assad regime is still in power 
and it is using its military force throughout that country.
    Turkey tells us that. Saudi Arabia tells us that. All the 
bordering countries tell us that. So what do they want us to 
do? They would--in conjunction with them they would like us to 
establish no-fly zones, shut down the air power and free 
zones--stop the killing.
    What is the reason for that? To pursue a political 
solution. You are using military force, which is always 
intended to do to get a political solution. What is the 
political solution? Assad is undermined.
    Right now, his Alawite and Druze power is not what it used 
to be. There is no guarantee that this would happen but it is 
so far better than the status quo and the genocide that is 
taking place that it is worth a try. And then you get to some 
kind of coalition sharing.
    Are we concerned about post-Assad? Of course. Are we 
concerned about, as the doctor mentioned, Jabhat al-Nusra and 
the strength that it has gained in the last year? Of course, we 
are.
    All of that in some kind of political compromise and 
coalition sharing is a far better political answer than what we 
have now and you use limited military power or, in this case, 
the threat of it to get you moving in that direction.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Meadows.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    Just a couple of things. You know, General Keane, you had 
talked about--you clearly made a distinction that was 
administration policy that has resulted in some of the 
instability that exist in Iraq and Syria.
    But it is not just exclusive to this administration. I 
think if you look back in the 2003 invasion of Iraq and the de-
Ba'athification order and the dissolution of the Iraqi army 
basically said to 100,000 Sunni Iraqis that there is no place 
for you in Iraqi society and that formed the basis for the 
insurgency that we dealt with for most of the time that we were 
there, and I would argue that it was also the genesis of ISIS.
    The second issue is the panel seemed to be somewhat 
dismissive of the sectarian nature of the conflict in Iraq and 
in Syria, and I don't think it can be dismissed at all. I mean, 
it amazes me and, General, you had made reference to Qasem 
Soleimani, who heads to Quds Forces in Iraq.
    I mean, he is not only a tangential player in what is going 
on in Iraq today and Syria--he is there physically. He is on 
the ground directing Shi'a militias to prop up the Shi'a 
government in Iraq and they are not doing that, you know, as a 
good will measure.
    They are doing that to impose their influence to ensure 
that in the aftermath of ISIS that Iraq remains Shi'a. And one 
could argue that ISIS basically wants their country back. They 
want to reestablish Sunni dominance in Iraq.
    And, you know, someone had said here, you know, it is a 
fair assertion that we should talk less to our enemies and more 
to our friends. We don't really have friends in that part of 
the world.
    You know, there is the discussion when Americans are in the 
room and the discussion when Americans are not in the room. And 
typically, we count our friends as people whose interests are 
aligned with ours at any given time.
    But they are not really helping us, and it just seems that 
given everything that Americans have invested toward peace in 
Iraq--$25 billion to build up--to help them build up an Iraqi 
army, a security force--$25 billion--in their first test they 
ran.
    They ran from a fighting force of less than 31,000. The 
Iraqi army at that time was estimated to be anywhere between 
180,000 and 240,000 fighters. And then we depend on our allies 
who have proven to be helpful to us, the peshmerga--good 
fighters, experienced fighters, pro-Western, helped us on the 
early stages of the Iraq war, 190 fighters--and Shi'a militias, 
who are controlled directly by Qasem Soleimani, an Iraqi.
    And, you know, we tried to do one thing and I think we 
could only expect to do one thing in Iraq and that is through 
our military involvement to create a place, a breathing space, 
within which Sunni, Shi'a and Kurds could develop a political 
contract, and they failed miserably.
    And the guy that we put in there, Nouri al-Maliki, we put 
him in there first--Iran put him in there the second time--you 
know, basically created another sectarian divide. So, you know, 
at least when Saddam Hussein was in there, there was an 8-year 
war between Iraq and Iran and they fought to a standstill.
    Khomeini had said that when the Revolutionary Guard came to 
him and said--and Mousavi came to him and said, we can't win 
this thing, he basically stopped the war.
    But he said it was like drinking poison from a chalice. At 
least they were preoccupied with each other and expending the 
resources so that they weren't directed toward us.
    Look, a lot of questions there. I apologize for it, but a 
lot of things have been said here. So I throw that out to you--
all of you.
    General Keane. Briefly, you know, I agree with a lot of 
what you just said. I would go further. This isn't about 
politics for me--a Democratic administration, Republican 
administration. I am interested in policy.
    The White House policy dealing with Afghanistan and not 
building an effective security force after we deposed the 
regime was a policy mistake that led to the reemergence of the 
Taliban.
    As you pointed out, the decision to disband the army and 
not pull it back and use it as security and stability when 
looting led to general lawlessness was a mistake. However, 
having Saddam Hussein in our jail houses, and other generals, 
we know now that the regime began that insurgency.
    They planned it 6 months before execution and they 
conceptualized it actually 2 years prior. So they were going to 
do that regardless of what we did with the military. But 
nonetheless, it still was a policy mistake.
    The sectarian nature of the conflict, yes. I am not 
dismissive of it but this much I know. ISIS' own stated 
objectives in their 400-page document in color designs a 
caliphate in the region and they intend to dominate those 
countries.
    Most of those countries are in fact Sunnis, as they are. So 
they intend to dominate the countries in the region to 
establish their caliphate, not only Shi'a countries where they 
have begun but also Sunni countries, which means they would 
depose governments and kill people in support of those 
governments.
    I am not--and they take huge advantage of the sectarian 
conflict and manipulate it, you know, to their ends. And Qasem 
Soleimani, certainly an instrument of the Supreme Leader. 
Doesn't work for anybody else but the Supreme Leader. He is 
carrying out his regional objectives, which are largely 
geopolitical.
    What they want in Iraq, in my judgment, is a weak 
government but stable, aligned with Iran and not aligned with 
the United States.
    That is their objective and I think they are working toward 
that end, and I know we are sort of out of time here. Thank 
you.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    I am just going to ask a few more questions, if I might. 
Mr. Jones, in your testimony both written and oral you said 
that we should consider pausing the Syria and Iran train 
program until we get a clear explanation of our strategy and 
long-term goals.
    The administration has said that it wants the program to 
only be for defensive purposes against ISIL. Yet, these forces 
consider Assad to be their number-one enemy, and I will ask the 
panelists or just Dr. Jones, what do you believe should be the 
mission of the train and equip and program both in Syria and in 
Iraq?
    Should they be offensive? Should they be defensive? How can 
we use these programs to help bring stability to the region?
    Mr. Jones. That is an excellent question, or excellent 
series of questions. My own experience in being involved in 
training programs overseas is that one can't train only for 
offensive or defensive purposes.
    You can't control, like joysticks, fighters when they go 
into the field. So if they are trained for primarily defensive 
purposes, when they actually go into combat they are going to 
use both skill set--the skill sets for offensive and defensive 
purposes.
    I think that is the general reality. My primary focus on 
the train and equip program, though, is to meld together a 
training program with a political end state in Syria and so if 
we are going to train Syrian rebels, if that is--if that makes 
political sense and then they have to be designed toward 
dealing with the biggest political problem in Syria right now, 
which is the Assad regime.
    But if you are going to train then they have to be trained 
sufficiently, integrated with other states in the region 
including the Jordanians to pursue operations on the ground 
in--with the long-term goal of a political end goal and I think 
that is the end of the Assad regime.
    So what I would like to see is the matching of those and, 
again, I would just highlight, you know, there are at least two 
other challenges I think there are with the program.
    One is there is no follow-on force once these people hit 
the ground. It makes it very difficult to see what they are 
doing, to impact what they are doing on the ground.
    The second issue is that in general they--that it makes it 
very difficult--if you are not there it makes it difficult to 
assess what they are doing, how they are doing. You really need 
people on the ground to be about to assess that and, again, 
this really is special operations skill set or an intelligence 
one with organizations like the CIA.
    So I think if we are to do this, those are the kinds of 
forces I would strongly consider.
    Ms. Ros-Lehtinen. General Keane.
    General Keane. The training program in Syria makes no sense 
to me whatsoever and I don't think we should be doing it. It is 
a fig leaf because 5,000 new recruits this year are not 
consequential to dealing with ISIS and that is the stated 
purpose of doing it.
    They are supposed to join a Free Syrian Army, which is in 
fact fighting the regime and not fighting ISIS. The only time 
the training program will make any sense is when we have a 
political solution in Syria and ISIS is still there and we have 
to deal with it.
    Then it makes some sense now to put together a training 
force. Now we would train not--and we would put--I think it 
would be advisable to put some advisors on the ground as well. 
That makes sense because now you have got a stable political 
situation. The regime is not pounding its people anymore or the 
opposition force.
    In Iraq, the problem with the train and assist mission it 
is just--Madam Chairman, it is just so extraordinarily 
inadequate.
    We have an 18-division force in Iraq that we began with. We 
are training nine Iraqi brigades and three peshmerga brigades. 
No advisors will go forward with those units to fight, no 
forward air controllers forward with those units. We need a few 
thousand advisors training considerably more people, compress 
the time frame and then let some of those trainers as advisors 
go forward and follow with the unit.
    Ms. Ros-Lehtinen. And that was going to be general----
    General Keane. So it is inadequate.
    Ms. Ros-Lehtinen. My follow-up question, which was what is 
your assessment of the Iraqi security forces capability. But 
you just answered that.
    But you had testified that we are taking less than half 
measures to assist the Iraqi security forces, that we are 
providing insufficient arms to the Kurds and we have no 
credible plan to defeat ISIL.
    I will ask you, do you believe that the current government 
in Baghdad, that is certainly a breath of fresh air compared to 
the previous one, can work cooperatively with the Kurds and 
provide them military hardware?
    General Keane. Yes, and that is a great question and you--I 
think you probably know the answer here. It is pretty 
frustrating what is unfolding. We want to assist the Sunni 
tribes, we want to assist the Kurds and the Iraqi Government is 
constipating that process. And I know there is a thought that 
we should find a mechanism to go around the government.
    Look, this government is an improvement and much of the 
success in Iraq is dependent on their ability to politically be 
inclusive, particularly with the Sunni tribes and with the 
Kurds.
    The advisors and the training program and the Sunni tribes 
is inadequate. It is not going to get us there. The arms 
program is inadequate because they are not reaching them.
    The same thing with the Kurds. The Kurds have skill and 
they have will, but they need better weapons and that is not 
getting there either.
    More pressure needs to be put on--I would rather go through 
the government and make that happen than go around the 
government and find another program to do it. We have got to 
move the government in the right direction to do that.
    Ms. Ros-Lehtinen. Thank you. Thank you, General.
    Mr. Deutch.
    Mr. Deutch. Thanks. Thank you, Madam Chairman.
    General Keane, if the train and equip mission is just a fig 
leaf, if it is not going to accomplish what needs to be done in 
Syria, which is, I think what you just said--you just described 
the problems in Iraq--so what is--how do we--how do we 
accomplish it?
    It would start with Syria, and if in Syria ultimately the 
real solution involves Assad's departure then, for you and Dr. 
Wittes, how do we--how does that happen?
    Who can put pressure on Assad if at this point it is not us 
and, obviously, it is not--it appears that it is not the 
Russians?
    General Keane. Well, what I have suggested is that, 
clearly, we can use the military instrument here to try to get 
a political solution.
    We should take the counsel of our allies in the region--
Turkey, Saudi Arabia, UAE, Jordan--and what their objective is, 
clearly, they recognize ISIS as a major threat to them.
    But they understand that to pursue ISIS while the Assad 
regime has all of its military power and is pounding opposition 
forces and killing its own people makes no sense. We have got 
to get Assad out of there.
    The way to do that--and there is no perfect solution here. 
But the status quo, I think, is unacceptable, given the 
genocide that is taking place.
    So what you do is you put in, and this is what our allies 
would like to do and I agree with them, no-fly zones--if Assad 
contested then we would shut his air power down and we have the 
capability to do that, I don't think he would--and buffer zones 
to stop the genocide.
    The Alawites and the Druze right now have less support for 
Assad than they have had through these 4 years. I think some 
kind of political solution with Assad gone is in the offing.
    The opposition will not entertain anything with Assad 
there. So I would focus on that political solution and modest 
introduction of military threat and possible capability to do 
that. That allows you then to focus on ISIS.
    ISIS cannot be driven out of Syria, Congressman Deutch, 
without an effective ground force. Where is that going to come 
from? It is not going to be the 5,000 recruits that we are 
training.
    It has to be largely provided by the nations in the region. 
They have to step up and do that. They will not do that with 
Assad there.
    So once we get a political solution then we can put 
together some kind of an effective ground force to deal with 
ISIS. Otherwise, the policy we have now is ISIS just continues.
    Mr. Deutch. All right. Great.
    So, Dr. Wittes, how do we get that political solution?
    Ms. Wittes. Thank you. Well, I think what General Keane is 
suggesting is that, in essence, we need to reverse the 
sequencing that the administration has put forward.
    They have said ISIS is the first priority and Assad is the 
second, and the General would have it the other way around. I 
actually think that the problem right now on the ground is that 
those who are gaining influence and power are gaining it 
because of battlefield success.
    They are not gaining it because they are protecting people. 
They are not gaining it because they are providing services. 
They are not gaining it because they are providing justice.
    And ISIS is saying that it is offering a governing model 
but what it is really offering is, we can win, and the 
extremist rebels on the ground that are doing the business in 
Idlib right now are gaining strength because they are showing 
that they can win.
    What we want to do is reverse that dynamic. We want to show 
that if you can demonstrate the ability to hold territory, to 
govern people, to provide security and justice that that brings 
benefits.
    And in order to do that, I think safe zones are a piece of 
the puzzle definitely worth considering, and our allies are 
pushing that, but it would require a commitment that we so far 
have been unwilling to make.
    Now, our allies have just been conducting air operations 
over Yemen and they have, you know, been part of the anti-ISIS 
campaign in there as well.
    So I think it is worth asking the question whether policing 
those safe zones is something they might be willing to take on 
or at least be the lead on in terms of threatened use of force.
    But we have also got to ensure that resources flow to these 
rebel-held areas in a way that keeps civilians there instead of 
having them flee and worsen the refugee problem and allows 
rebel forces who actually want to help govern Syria to begin to 
govern and protect Syrian people.
    Mr. Deutch. Madam Chair, can I ask one last question?
    So we know--we know that the American people will be 
supportive of efforts to push back ISIS. The horrific 
beheadings, I think, shine a light on the awful brutality of 
what they do and the killing of Americans is, I think, a moment 
of awakening for Americans. We understand that.
    I think there is broad awareness of the threats that--the 
concerns that we have about Iran and the Iranian threat and 
their support of not just propping up Assad but the way that 
they meddle and disrupt in the region and their support of 
terror.
    But I would just like--before we go I would just like to 
ask this question. With now a quarter of a million or so 
Syrians having died, do we--is there a place in our foreign 
policy for human rights anymore? Do we care? Do you think the 
American people care?
    General Keane. I definitely think so. I mean, I think the 
problem we have had here--you know, over at the Institute for 
the Study of War we get--we keep track of the genocide. We have 
got just these unbelievably graphic pictures of the results of 
starvation campaigns, attacking bakeries, 62 percent of the 
hospitals being destroyed, close to 70 percent of the 
ambulances--a systematic methodology that the Assad regime has 
used on killing his people.
    It is just--it is outrageous. But very little of that is in 
the domain of the American people. I will tell you that--and I 
have to protect confidentiality here--I have dealt with some 
relatively senior people in the administration who had no level 
of detail of what this really was until I put photographs in 
front of them and showed them this systematic methodological 
campaign to do this.
    It is much more than just barrel bombing. And so I think 
that is part of it. I mean, there is--I think the American 
people in general have the sense something bad is going on in 
Syria and people are being killed but they don't have a sense 
of what that really is.
    I will--I always believe fundamentally that this country 
has and will continue to have an interest in human suffering in 
the world. Doesn't mean we can solve all of it. I am not 
suggesting that.
    But I do believe that that is--and it is part of the 
President's policy dealing with ISIS--it is one of his tenets 
of it is humanitarian assistance.
    Mr. Deutch. General Keane, I believe you are right. And 
Madam Chairman, we had a witness here at one of our previous 
hearings, if you recall, who was a physician--a Syrian-American 
physician--who came--went to provide medical assistance in 
Syria and came here and told us about not--he didn't have the 
evidence of systematic killing.
    All he could tell us about was standing out in a school 
yard and looking up and seeing a black dot in the sky and 
knowing that it was a helicopter, and then seeing two more 
black dots come out and knowing that they were barrel bombs and 
knowing that they were being dropped and having no idea where 
they were going to land but the sole purpose of those dots as 
they fell and grew larger and ultimately hit the ground was to 
kill as many people as possible.
    General Keane, I believe you. I believe that we still think 
that human rights matter and that a regime that brutally kills 
over 200,000 people cannot be allowed to stand, and I think it 
is an important reminder. I am heartened by what you said.
    And I hate to end this hearing on that note. Your testimony 
has been--the three of you--has been really helpful to us. But 
I was at a meeting with our U.N. ambassador, who raised a 
term--this was a while ago, actually--who raised the term, a 
professional term, that I never heard before called psychic 
numbing.
    We can't afford, as a country, to allow psychic numbing to 
overcome the way we view the tragic deaths of thousands and 
thousands of people at the hands of a brutal dictator. We can't 
allow it. It is not who we are and I appreciate speaking here.
    Ms. Ros-Lehtinen. Amen. Thank you. Yes, I remember the use 
of that phrase tragic numbing and it is a tragedy.
    Mr. Connolly, thank you so much for being kind enough to 
give up your time. But I wanted to recognize you so that you 
could say a few words before we break, and I know that we have 
votes on the floor.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    Forgive me for being late--been a harried morning. 
Obviously, a lot more to go into in terms of this subject area. 
I was informed that General Keane perhaps made the suggestion 
that we were deliberately holding back in support of Syria 
freedom fighters or insurgents somehow to perhaps please Iran.
    I have never seen any evidence of that. I think we are 
holding back because we are not entirely sure which side to 
support and there isn't a great secular middle that is out 
there fighting the Assad regime.
    But that is worthy of further examination and, certainly, I 
will study your testimony very closely.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Thank you, Mr. 
Deutch.
    I thank the panelists for your excellent testimony. You 
have given us a lot to chew on, a lot to ponder on, a lot to 
worry about.
    Thank you so much, and with that the subcommittee is 
adjourned. Thank you.
    [Whereupon, at 12:51 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
